No. 19-704
In the

Supreme Court of the United States
Matthew D. Wilson and Troy Edhlund,
Petitioners,
v.
County of Cook, a body public and
municipal corporation, et al.,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Seventh Circuit

BRIEF IN OPPOSITION
Cathy McNeil Stein
Assistant State’s Attorney
Chief, Civil Actions Bureau
Jessica M. Scheller
Paul A. Castiglione*
Assistant State’s Attorneys
paul.castiglione@cookcountyil.gov

Kimberly M. Foxx
Cook County State’s
Attorney
500 Richard J. Daley Center
Chicago, Illinois 60602
(312) 603-2350

Lauren E. Miller
Special Assistant
State’s Attorney
Of Counsel
*Counsel of Record
Counsel for Respondents
293429

A
(800) 274-3321 • (800) 359-6859

i
COUNTER STATEMENT OF
QUESTIONS PRESENTED
Petitioners seek review of the Blair Holt Assault
Weapon and Large-Capacity Magazine Ban (the “County
Assault Weapons Ban” or “the County Ordinance”) that
respondent Cook County, Illinois (the “County”) enacted
and that the United States Court of Appeals for the
Seventh Circuit deemed constitutional in Wilson v. Cook
County, 937 F.3d 1028 (7th Cir. 2019) (per curiam).
The counter statement of questions presented are:
1.

Whether Petitioners present a compelling reason
for review pursuant to S. Ct. R. 10(a) when the
case does not include a United States court of
appeals decision in conflict with another United
States court of appeals on the same important
matter.

2.

Whether Petitioners present a compelling reason
for review pursuant to S. Ct. R. 10(c) when this
Court declined to grant review of Friedman v.
Village of Highland Park, 784 F.3d 406 (7th Cir.
2015) or Kolbe v. Hogan, 849 F.3d 114 (4th Cir.
2017) (en banc).

ii
TABLE OF CONTENTS
Page
COUNTER STATEMENT OF
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . i
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . iv
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 1
I.

Background. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
A. The Cook County Ordinance. . . . . . . . . . . . . 2
B. The Highland Park Ordinance and
Friedman  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

II. Proceedings Below . . . . . . . . . . . . . . . . . . . . . . . . . 5
A. State Court and Federal District Court
Proceedings  . . . . . . . . . . . . . . . . . . . . . . . . . . 5
B. The Court of Appeals’ Decision . . . . . . . . . . 7
REASONS FOR DENYING THE PETITION  . . . . . . 8
I.

Petitioners Offer No Compelling Reason
for Review Pursuant to S. Ct. R. 10 . . . . . . . . . . . 8
A. The Seventh Circuit Developed Its
Doctrinal Approach In Accordance with
Heller I and McDonald . . . . . . . . . . . . . . . . 10

iii
Table of Contents
Page
B. T he S eventh Ci rcu it ’s Rel ia nce
Upon Friedman Is Consistent With
Both Heller I and the post-Heller I
Jurisprudence Of Its Sister Circuits . . . . . 11
i.

No Conflict Exists Among The
Circuits . . . . . . . . . . . . . . . . . . . . . . . . . . 13

ii. Petitioners’ Reliance Upon Caetano
Is Misplaced . . . . . . . . . . . . . . . . . . . . . . 14
C. Friedman Aligns With Ezell I . . . . . . . . . .  17
II. Petitioners Are Not Entitled To Additional
Discovery and the Discovery Rulings Below Do
Not Warrant Review From This Court . . . . . . . 18
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

iv
TABLE OF CITED AUTHORITIES
Page
Cases
Ass’n of New Jersey Rifle & Pistol Clubs, Inc. v.
Att’y Gen. New Jersey,
910 F.3d 106 (3d Cir. 2018) . . . . . . . . . . . . . . . . 13-14, 20
Caetano v. Massachusetts,
136 S. Ct. 1027 (2016) (per curiam) . . . . . . . . . . .  15, 16
Ezell v. City of Chicago,
651 F. 3d 684 (7th Cir. 2011) . . . . . . . . . . . . . . . . passim
Ezell v. City of Chicago,
846 F.3d 888 (7th Cir. 2017) . . . . . . . . . . . . . . . . . . . . 11
District of Columbia v. Heller,
554 U.S. 570 (2008) . . . . . . . . . . . . . . . . . . . . . . . passim
Friedman v. City of Highland Park,
68 F. Supp. 3d 895 (N.D. Ill. 2014) . . . . . . . . . . . 1, 5, 19
Friedman v. City of Highland Park,
784 F.3d 406 (7th Cir. 2015) . . . . . . . . . . . . . . . . passim
Friedman v. City of Highland Park,
136 S. Ct. 147 (2015)  . . . . . . . . . . . . . . . . . . . . . . passim
Fyock v. Sunnyvale,
779 F.3d 991 (9th Cir. 2015) . . . . . . . . . . . . . . . . .  14, 18

v
Cited Authorities
Page
Heller v. District of Columbia,
670 F.3d 1244 (D.C. Cir. 2011) . . . . . . . . . . . .  14, 17, 18
Kachalsky v. County of Westchester,
701 F.3d 81 (2d Cir. 2012) . . . . . . . . . . . . . . . . . . . . . . 16
Kimble v. Marvel Entertainment, LLC,
135 S. Ct. 2401 (2015) . . . . . . . . . . . . . . . . . . . . . . . . . 20
Kolbe v. Hogan,
849 F.3d 114 (4th Cir. 2017) . . . . . . . . . . . . . . . . . .  14, 16
McDonald v. City of Chicago,
561 U.S. 742 (2010)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
New York State Rifle & Pistol Ass’n, Inc. v.
Cuomo,
804 F.3d 242 (2d Cir. 2015) . . . . . . . . . . . . . . . . . .  14, 16
Shew v. Malloy,
136 S. Ct. 2486 (2016) . . . . . . . . . . . . . . . . . . . . . . . . . 16
United States v. Miller,
307 U.S. 174 (1939) . . . . . . . . . . . . . . . . . . . . . . . . .10, 12
United States v. Wolfe,
701 F.3d 1206 (7th Cir. 2012) . . . . . . . . . . . . . . . . . . . . 8
Vasquez v. Foxx,
895 F.3d 515 (7th Cir. 2018)  . . . . . . . . . . . . . . . . . . . . . 3

vi
Cited Authorities
Page
Wilson v. County of Cook,
2012 IL 112026 (Ill. 2012) . . . . . . . . . . . . . . .  6, 8, 17, 18
Worman v. Healey,
922 F.3d 26 (1st Cir. 2019)  . . . . . . . . . . . . . . . . . . . . . 13
RULES AND ORDINANCES
Cook County’s Blair Holt Assault Weapon and
Large-Capacity Magazine Ban . . . . . . . . . . . . . passim
Highland Park Assault Weapon Ordinance  . . . . . passim
United States Supreme Court Rule 10  . . . . . . . . . . . . . . 9
Federal Rule of Civil Procedure 12 . . . . . . . . . . . . . . . . . 6
Federal Rule of Civil Procedure 25 . . . . . . . . . . . . . . . . . 3
Federal Rule of Evidence 201 . . . . . . . . . . . . . . . . . . . . . 19
CONSTITUTIONAL PROVISIONS
U.S. Const. amend. II  . . . . . . . . . . . . . . . . . . . . . . . passim

1
STATEMENT OF THE CASE
The County Ordinance under review is materially
identical to an ordinance that the City of Highland Park,
Illinois (“Highland Park”) enacted on June 24, 2013 (the
“Highland Park Ordinance”). Both prohibit the same
conduct: the manufacture, sale, offer or display for sale,
giving, lending, transferring ownership, acquisition
or possession of any assault weapon or large-capacity
magazine. (App. 37-40); 1 Highland Park, Ill. Code
§ 136.005-999. A violation of either ordinance is punishable
as a misdemeanor. Id. The ordinances both provide for
the destruction of confiscated assault weapons or largecapacity magazines. Id. As such, both the district court
and the Seventh Circuit found that that the County Assault
Weapons Ban and the Highland Park Ordinance are
materially indistinguishable. (App. 1, 14, 20.)
In December 2013, a Highland Park resident and the
Illinois State Rifle Association filed a Second Amendment
challenge to the Highland Park Ordinance. The district
court entered summary judgment in favor of Highland
Park and the Seventh Circuit affirmed. Friedman v. City
of Highland Park, 68 F. Supp. 3d 895 (N.D. Ill. 2014),
aff’d, 784 F.3d 406 (7th Cir. 2015). Plaintiffs then filed a
petition for writ of certiorari to this Court. The Court
declined to hear the matter for review. See Friedman v.
City of Highland Park, 136 S. Ct. 447 (2015) (Thomas, J.,
dissenting).
In the instant case, petitioners Matthew D. Wilson and
Troy Edhlund (“Petitioners”) filed a Second Amendment
challenge to the County Assault Weapons Ban. Petitioners,
1. Citations to the Petitioners’ appendix will be to “App. __.”

2
however, concede that the County Ordinance is “materially
indistinguishable” from the Highland Park Ordinance
at issue in Friedman. (App. 13-14.) The district court
dismissed Petitioners’ lawsuit for this reason, finding
Friedman dispositive. Id. at 23, 26-27. On appeal,
Petitioners asked the Seventh Circuit to reconsider
Friedman, yet offered no post-Friedman authority or
developments to justify their request. To the contrary,
in the wake of Friedman more circuits have held that
bans on assault weapons and large capacity magazines
comport with the Second Amendment. 2 Accordingly, in
a per curiam decision, the Seventh Circuit affirmed the
district court’s dismissal of Petitioners’ complaint. Id. at
1-19.
By requesting review of an ordinance that Petitioners
concede is “materially indistinguishable” from the
Highland Park Ordinance, this petition now seeks a “second
bite” at the proverbial apple in Friedman. Petitioners fail
to offer a single new issue or legal argument to justify this
extraordinary request. The petition for writ of certiorari
should be denied.
I.

Background.
A.

The Cook County Ordinance.

Petitioners sued respondents the County, Thomas J.
Dart, Sheriff of Cook County, Toni Preckwinkle, President
of the Cook County Board of Commissioners, and Cook
County Board of Commissioners Jerry Butler, Deborah
2. See discussion of the appellate circuits’ pre- and postFriedman decisions, infra, at 13-14.

3
Sims, Peter N. Silvestri, John F. Daley, Larry Suffredin,
Gregg Goslin, Timothy O. Schneider, Luis Arroyo Jr.,
Richard R. Boykin, Dennis Deer, John A. Fritchey,
Bridget Gainer, Jesus G. Garcia, Edward M. Moody,
Stanley Moore, Sean M. Morrison, and Jeffrey R. Tobolski
(collectively “Respondents”), 3 seeking declaratory and
injunctive relief to halt the implementation of the County
Ordinance banning assault weapons and large-capacity
magazines. In November 2006, the Commissioners of
Cook County enacted the operative ban — the County
Ordinance — as an amendment to the Cook County Deadly
Weapons Dealer Control Ordinance. Cook County, Ill.
Code §§ 54-210, et seq.; (see also App. 28.)
In relevant part, the County Ordinance defines
“assault weapon” and “large-capacity magazine,” and
makes it illegal to “manufacture, sell, offer or display
for sale, give, lend, transfer ownership of, acquire, carry
or possess” either item in Cook County. Id. at §§ 54-211,
54-212(a); (see also App. 29-37.) Any person who legally
possessed an assault weapon or large-capacity magazine
prior to enactment of the amendment must remove it
3. As of December 3, 2018, Cook County Commissioners
Kevin B. Morrison, Donna Miller, Bill Lowry, Brandon Johnson,
Bridget Degnan, Scott R. Britton and Alma E. Anaya replaced
Commissioners Jerry Butler, Gregg Goslin, Timothy O. Schneider,
Richard Boykin, John Fritchey, Jesus G. Garcia and Edward
Moody on the Cook County Board. Pursuant to Federal Rule
of Civil Procedure 25(d), the new commissioners automatically
replaced the former commissioners as defendants-appellees in this
lawsuit. See Vasquez v. Foxx, 895 F.3d 515, 518, n. 1 (7th Cir. 2018)
(recognizing that upon being sworn into office, the new State’s
Attorney became a defendant in a pending federal case pursuant
to Federal Rule 25(d)).

4
from county limits, modify it to render it permanently
inoperable, or surrender it to the Cook County Sheriff.
Id. at § 54-212(c); (see also App. 38-39.) Upon receipt
of a surrendered or confiscated weapon or magazine,
the Sheriff must determine if it constitutes necessary
evidence, and, if not, destroy it. Id. at § 54-213(a)-(b);
(see also App. 39.) A violation of the County Ordinance
is a misdemeanor carrying a fine ranging from $5,000 to
$10,000 and a term of imprisonment of up to six months.
Id. at § 54-214(a); (see also App. 39-40.)
B. The Highland Park Ordinance and Friedman.
On June 24, 2013, the City of Highland Park,
Illinois also enacted an ordinance (the “Highland Park
Ordinance”) banning assault weapons and large-capacity
magazines. In the present case, both the district court and
Seventh Circuit found the Cook County Ordinance to be
substantively identical to the Highland Park Ordinance.
(App. 1, 14) (finding the two ordinances “materially
indistinguishable”); id. at 20 (finding the two ordinances
“materially identical”). Specifically, the Highland Park
Ordinance defines “assault weapon” and “large-capacity
magazine” in terms virtually identical to the County
Ordinance and contains the same prohibition against those
who “manufacture, sell, offer or display for sale, give, lend,
transfer ownership of, acquire or possess” any assault
weapon or large-capacity magazine. Highland Park,
Ill. Code § 136.005. The Highland Park Ordinance also
requires those in possession of a banned item to: remove
it from city limits; render it permanently inoperable
or permanently alter it so that it no longer meets the
definition of assault weapon or large-capacity magazine;
or surrender it to the Chief of Police. Id. at § 136.020. And

5
like the Cook County Sheriff, the Chief of Police must
destroy any assault weapon or large-capacity magazine
not needed as evidence. Id. at § 136.025. A violation of the
Ordinance carries a fine of $500 to $1,000 and a maximum
term of six months’ imprisonment. Id. at § 136.999.
Follow ing the adoption of the Highland Park
Ordinance, a Highland Park resident and the Illinois
State Rifle Association brought a Second Amendment
challenge against the City in the Northern District of
Illinois. Friedman, 68 F. Supp. 3d at 895. The district
court granted Highland Park’s motion for summary
judgment and denied the plaintiffs’ motion. Id. at 909. The
plaintiffs appealed.
The Seventh Circuit affirmed the district court
decision, applying a two-step test 4 to conclude that the
assault weapon and large-capacity magazine ban did
not run afoul of the Second Amendment. Friedman, 784
F.3d at 412. This Court subsequently declined to hear the
matter for review. Friedman, 136 S. Ct. at 447.
II. Proceedings Below.
A.

State Court and Federal District Court
Proceedings.

This lawsuit began in state court in 2007, when
Petitioners challenged the County Ordinance on Second
Amendment, Due Process, and Equal Protection grounds.
(App. 22.) Subsequently, Petitioners litigated their due
process and equal protection claims through a final
4. See discussion of the Friedman two-part test, infra.

6
judgment that the Illinois Supreme Court affirmed.
Id. (citing Wilson v. County of Cook, 2012 IL 112026
(Ill. 2012) (remanding Second Amendment claim, but
affirming dismissal of due process and equal protection
claims)). Given that the Illinois Supreme Court has already
ruled on Petitioners’ Due Process and Equal Protection
claims, Wilson, 2012 IL 112026 at ¶¶ 19-33 and 54-56,
this Court is the sole remaining court with jurisdiction
to hear any furhter appeal of Petitioners’ Due Process
and Equal Protection claims. See 28 USCS § 1257(a).
Petitioners, however, did not timely seek review of these
claims and have not raised them in their petition. (App.
5 n.3) (“[Plaintiffs] made no mention of [either claim] in
their opposition to the defendants’ motion to dismiss the
complaint in the district court or in their briefing before
this court.”); see also id. at 22. Following the Illinois
Supreme Court order remanding Petitioners’ Second
Amendment challenge to the trial court, Petitioners
voluntarily non-suited the case and refiled it in 2017,
whereupon Respondents removed the case to federal
court. Id. at 4, 22.
In the federal district court, Respondents filed a
motion to dismiss pursuant to Federal Rule of Civil
Procedure 12(b)(6), arguing that Friedman disposed of
the case given how closely the Cook County Ordinance
mirrors that of Highland Park. (App. 23.) The district
court granted Respondents’ motion to dismiss and entered
judgment in their favor. Id. at 27. From this judgment,
Petitioners sought review in the Seventh Circuit Court
of Appeals. Id. at 1.

7
B. The Court of Appeals’ Decision.
On appeal, Petitioners first asserted that the district
court denied them the opportunity to develop a factual
record about the differences in demographics between
Highland Park and Cook County. Id. at 12-13. The Seventh
Circuit, however, rejected this argument. Id. at 13-14.
Rather, it limited its review to the questions presented
by Petitioners, explaining that “[w]e answer only the two
questions presented by the appellants: “should the district
court have given the plaintiffs an opportunity to develop
a factual record on which to distinguish Friedman, and
should we revisit our holding in Friedman.” Id. at 18.
Notably, the Seventh Circuit limited its review in
this manner because it found the development of an
evidentiary record irrelevant to its decision, as the “result
in Friedman did not turn on any factual findings unique
to Highland Park.” Id. at 13 (noting, for example, that
the Friedman decision considered: a national statistic
concerning common ownership, 784 F.3d at 409; general
evidence of the features of semi-automatic guns and
large-capacity magazines, id.; and crime data outside
of Highland Park, id. at 411). Moreover, Petitioners
conceded “that the prohibitions imposed by the County
Ordinance and the Highland Park Ordinance are
materially indistinguishable.” (App. 13-14.) Accordingly,
the Seventh Circuit found “no need for County-specific
discovery regarding the plaintiffs’ Second Amendment
challenge.” Id.
Similarly, the Seventh Circuit rejected Petitioners’
second argument: that Friedman was wrongly decided.
In doing so, the court explained that it has “stated

8
repeatedly, and recently, that, absent a compelling reason,
we will not overturn circuit precedent.” Id. at 15; see also
United States v. Wolfe, 701 F.3d 1206, 1217 (7th Cir. 2012)).
Petitioners, however, failed to produce “any authority or
developments that postdate[d] [the] Friedman decision”
to justify reconsideration. (App. 15.) Accordingly, absent
a materially new ordinance or compelling reason for
reconsideration, the Seventh Circuit rejected Petitioners’
request and applied well-settled circuit precedent to affirm
the district court. Id. at 16-18 (discussing Friedman, 784
F.3d 406; Ezell v. City of Chicago, 651 F. 3d 684 (7th Cir.
2011)).
REASONS FOR DENYING THE PETITION
The Petition faces two insurmountable hurdles: (1) like
Friedman, the decision below is faithful to Heller I; and (2)
the decision below does not deviate from the decisions of its
sister circuits, which have considered whether the Second
Amendment prohibits a ban on semi-automatic assault
weapons and high capacity magazines. Petitioners ask
the Court to reconsider its 2015 declination in Friedman,
yet offer no new issue or legal argument for it to consider.
As a result, the Petition does not present a question that
warrants the Court’s review.
I.

Petitioners Offer No Compelling Reason for Review
Pursuant to S. Ct. R. 10.

Petitioners contend that review is required because
the Seventh Circuit’s decision in Wilson strays too far
from the rubric that this Court established in District
of Columbia v. Heller, 554 U.S. 570 (2008) (“Heller I”).

9
(Petition at 13-20.)5 Alternatively, Petitioners assert that
the lower court failed to properly apply the two-part Ezell
I test in both Friedman and this case. (Petition at 20-22.)
Neither argument, however, warrants review under the
standards set forth in Supreme Court Rule 10.
First, Supreme Court Rule 10(c) provides that review
may be appropriate when a United States appellate court
has “decided an important federal question in a way that
conflicts with relevant decisions of this Court.” This
matter does not present such a conflict. Indeed, the Cook
County Ordinance remains “materially indistinguishable”
from the very ordinance that the Seventh Circuit upheld
against a Second Amendment challenge in Friedman,
and that this Court declined to review in 2015. (App. 1.)
Petitioners similarly do not make a compelling case for
review pursuant to S. Ct. R. 10(a), which proposes review
when federal appellate courts enter conflicting decisions on
the same important matter. Heller I explicitly recognized
that the right to bear arms is not unlimited. 554 U.S.
at 595. In light of this recognition, each federal circuit
presented with the opportunity to consider prohibitions
upon assault weapons and large-capacity magazines
similar to the Cook County Ordinance has agreed with
the court below. No conflict between the circuits exists on
this issue now, and if one subsequently develops, the Court
can determine whether review is appropriate at that point.

5. Citations to the Petition for a Writ of Certiorari will be
to “Petition __.”

10
A.

The Seventh Circuit Developed Its Doctrinal
Approach In Accordance with Heller I and
McDonald.

The Seventh Circuit properly concluded that the
District Court’s decision affirming the Cook County
Ordinance’s ban on assault weapons and large capacity
magazines did not violate Petitioners’ rights under the
Second Amendment. Over eighty years ago, in United
States v. Miller, 307 U.S. 174, 178 (1939), this Court
determined that the Second Amendment does not provide
a limitless right to keep and bear arms. The Court
reaffirmed this limitation in Heller I when it held that
the Second Amendment protects “an individual right to
keep and bear arms,” 554 U.S. at 595, but not a right “to
keep and carry any weapon whatsoever in any manner
whatsoever and for whatever purpose,” id. at 626.
In McDonald v. City of Chicago, 561 U.S. 742
(2010), this Court extended Second Amendment rights
to the States. In doing so, the Court recognized that
the Second Amendment “does not imperil every law
regulating firearms,” id. at 786, and that “[s]tate and
local experimentation with reasonable firearm regulations
will continue under the Second Amendment,” id. at 785.
In other words, this Court did “not read the Second
Amendment to protect the right of citizens to carry arms
for any sort of confrontation.” Heller I, 554 U.S. at 595.
Rather, the “central component of the right” recognized
in Heller concerned armed self-defense, most notably in
the home. Id. at 595, 599-600. As such, gun regulations
may continue to prohibit “the carrying of dangerous and
unusual weapons.” Id. at 627.

11
In deciding Heller I, this Court “resolved the Second
Amendment challenge . . . without specifying any doctrinal
‘test’ for resolving future claims.” Ezell I, 651 F.3d at
701. The federal circuits then fashioned tests of their
own, taking guidance from Heller I. The Seventh Circuit
joined this effort when it set forth a two-step inquiry to
determine the constitutionality firearm regulations under
the Second Amendment. Id. at 701-02. Under this inquiry,
courts in the Seventh Circuit must first ask whether the
regulated activity falls within the scope of the Second
Amendment. Ezell v. City of Chicago, 846 F.3d 888, 892
(7th Cir. 2017) (“Ezell II”) (citing Ezell I, 651 F.3d at 70102). This step requires a textual and historical inquiry
into whether the “challenged law regulates activity falling
outside the scope of the right as originally understood.” Id.
(citing Ezell I, 651 F.3d at 703). If after this first step the
historical evidence remains inconclusive or suggests that
the regulated category “is not categorically unprotected,”
then courts must complete a “second inquiry into the
strength of the government’s justification for restricting or
regulating the exercise of Second Amendment rights.” Id.
The rigor of this review rests at some level of heightened
scrutiny, dependent upon “how close the law comes to the
core of the Second Amendment right and the severity of
the law’s burden on the right.” Id.
B. The Seventh Circuit’s Reliance Upon Friedman
Is Consistent With Both Heller I and the postHeller I Jurisprudence Of Its Sister Circuits.
Petitioners do not dispute that the Seventh Circuit’s
doctrinal test aligns with Heller. Rather, Petitioners
contend that in both Friedman—which this Court
declined to review—and in this present case, the lower
courts improperly deviated from Heller. Not so.

12
In Friedman, the Seventh Circuit posed two guiding
questions: (1) “whether a regulation bans weapons that
were common at the time of ratification or those that
have ‘some reasonable relationship to the preservation or
efficiency of a well-regulated militia’”; and (2) “whether
law-abiding citizens maintain adequate means of selfdefense.” 784 F.3d at 410 (quoting Heller I, 554 U.S. at
622-25; Miller, 307 U.S. at 178-79). And in answering these
queries, the court found: (1) the weapons that the Highland
Park Ordinance regulated were not common in 1791; and
(2) while the banned weaponry bears a relation to the
preservation of militias, the states—which are in charge
of militias—should be allowed to determine when citizens
may possess military-grade firearms so as to have them
available when the militia is called to action. Id. at 410-11.
The Seventh Circuit further observed that the Highland
Park Ordinance left homeowners with “many self-defense
options” to exercise the “inherent right of self-defense”
first acknowledged in Heller. Id. at 411 (citing Heller I,
554 U.S. at 628).
Respondents cannot, and do not, point to case law
contradicting this approach. Rather, to support their
assertion that Friedman “departed from” or otherwise
“violated” Heller I, Petitioners first rely upon Justice
Thomas’ dissent from the denial of certiorari in Friedman.
(Petition at 18) (citing 136 S. Ct. at 449) (“[I]t was doubly
wrong for the Seventh Circuit to delegate to States and
localities the power to decide which firearms people
may possess.”)). In this dissent, Justice Thomas noted
his dissatisfaction with the use of “categorical bans” on
certain firearms. Friedman, 136 S. Ct. at 484 (Thomas,
J., dissenting).

13
Notwithstanding Justice Thomas’s dissent, this Court
rejected the Friedman petitioners’ request to review
Highland Park’s materially identical restrictions on semiautomatic assault weapons and large-capacity magazines.
Id. at 447. Moreover, the text of the dissent itself counsels
against the grant of certiorari in this case, as it notes
that “several Courts of Appeals—including the Court of
Appeals for the Seventh Circuit in the decision below—
have upheld” such bans. Id.
As demonstrated below, the Seventh Circuit remains
consistent with Heller I and the decisions of its sister
circuits that have considered Second A mendment
challenges to assault weapons and large-capacity
magazine bans. Review was not warranted in Friedman,
or now.
i.

No Conflict Exists Among The Circuits.

The accord among federal appellate courts that
have considered regulations similar to the Cook County
Ordinance remains widespread and unanimous. For
example, several circuits have sorted the constitutionality
of bans on classes of weapons between handguns
(unconstitutional) and submachine guns (constitutional),
utilizing tests analogous to that articulated in the Seventh
Circuit. See Worman v. Healey, 922 F.3d 26 (1st Cir.
2019) 6; Ass’n of New Jersey Rifle & Pistol Clubs, Inc.
6. In Worman, the First Circuit likewise held that a
Massachusetts law proscribing the sale, transfer, and possession
of certain semi-automatic assault weapons and large capacity
magazines did not violate the Second Amendment. 922 F.3d at
40-41. As of this writing, the petition for writ of certiorari in
Worman is still pending.

14
v. Att’y Gen. New Jersey, 910 F.3d 106 (3d Cir. 2018)
(large-capacity magazines); Kolbe v. Hogan, 849 F.3d 114,
135 (4th Cir. 2017) (en banc), cert. denied 138 S. Ct. 469
(2017) (“Because the banned assault weapons and large
capacity magazines are ‘like’ ‘M-16 rifles’—‘weapons that
are most useful in military service’—they are among
those arms that the Second Amendment does not shield.”)
(citing Heller I, 554 U.S. at 627). These decisions join a
collection of opinions from other circuits which predate
resolution of Friedman, yet yield the same result. See
New York State Rifle & Pistol Ass’n, Inc. v. Cuomo, 804
F.3d 242 (2d Cir. 2015), cert. denied, Shew v. Malloy, 136
S. Ct. 2486 (2016); Heller v. District of Columbia, 670 F.3d
1244, 1247-48 (D.C. Cir. 2011) (“Heller II”) (regulations
prohibiting assault weapons and possession of largecapacity magazines did not violate Second Amendment);
Fyock v. Sunnyvale, 779 F.3d 991 (9th Cir. 2015) (“Fyock”)
(upholding denial of motion for preliminary injunction
because large-capacity magazine ban was likely to survive
against Second Amendment challenge).
Every court to have considered a ban similar to
the Cook County Ordinance has concluded that assault
weapons and large capacity magazines offer a close fit
with the public’s strong interest in public safety, and do not
unnecessarily burden the rights of individual gunowners.
In light of this accord, Petitioners fail to demonstrate why
their request to reconsider Friedman warrants review
now.
ii.

Petitioners’ Reliance Upon Caetano Is
Misplaced.

In addition to Justice Thomas’s dissent from the denial
of certiorari in Friedman, Petitioners rely upon just one

15
decision to justify their position that Friedman runs afoul
of Heller: Caetano v. Massachusetts, 136 S. Ct. 1027 (2016)
(per curiam). Caetano does not aid Petitioners’ cause.
In Caetano, this Court held that the Supreme
Judicial Court of Massachusetts erred in upholding a law
prohibiting the possession of stun guns after examining
“whether a stun gun is the type of weapon contemplated
by Congress in 1789 as being protected by the Second
A mendment.” Id. at 1027. Relying upon Caetano,
Petitioners urge this Court to adopt a more expansive
view of the Second Amendment, one that prohibits bans
on semi-automatic weapons, assault weapons and high
capacity magazines. (Petition at 16-18.) But Caetano
cannot bear the weight that Petitioners place upon it.
Friedman did not involve a stun gun, nor did it hinge
upon an analysis of congressional intent. Rather, in
reaching its decision in Friedman, the Seventh Circuit
noted that “[Heller I] cautioned against interpreting
the decision to cast doubt on ‘longstanding prohibitions,’
including the ‘historical tradition of prohibiting the
carrying or ‘dangerous and unusual weapons.’” 784 F.3d at
407-08 (citing Heller I, 554 U.S. at 623, 627). Accordingly,
the court properly concluded that states hold the ultimate
power in deciding whether its residents can possess
“military-grade firearms” such as those regulated by
the Highland Park and Cook County ordinances. Id. at
410. And in doing so, it followed “the recognition—set
forth in Heller—‘that the Second Amendment confers an
individual right to keep and bear arms (though only arms
that have some reasonable relationship to the preservation
or efficiency of a well regulated militia).” (App. 16) (citing
Heller I, 554 U.S. at 662).

16
Moreover, Petitioners’ reliance upon Caetano
disregards this Court’s denial of certiorari in N.Y. State
Rifle & Pistol Ass’n v. Cuomo, 804 F.3d 242 (2nd Cir.
2015), cert. denied Shew v. Malloy, 136 S. Ct. 2486 (June
20, 2016), which followed Caetano and similarly upheld
prohibitions of semi-automatic assault weapons and
large-capacity magazines. In Cuomo, the Second Circuit
adopted intermediate scrutiny to find that the challenged
laws were “substantially related” to the achievement of the
“substantial, indeed compelling, governmental interests
in public safety and crime prevention.” 804 F.3d at 261
(citing Kachalsky v. Cty. of Westchester, 701 F.3d 81, 97
(2d Cir. 2012)). In relevant part, the Cuomo court afforded
“substantial deference to the predictive judgments of
the legislature” because “[i]n the context of firearm
regulation, the legislature is ‘far better equipped than the
judiciary’ to make sensitive public policy judgments (within
constitutional limits) concerning the dangers in carrying
firearms and the manner to combat those risks.” Id.; see
also Freidman, at 412 (“The best way to evaluate the
relation among assault weapons, crime, and self-defense
is through the political process and scholarly debate, not
by parsing ambiguous passages in the Supreme Court’s
opinions.”). Petitioners’ argument also ignores this Court’s
denial of certiorari in Kolbe, one year after its denial in
Cuomo. 849 F.3d at 120 (4th Cir. 2017) (en banc), cert.
denied, 138 S. Ct. 469 (2017) (upholding statewide ban on
assault weapons and detachable large-capacity magazines
against Second Amendment challenge).
This Court’s decision to decline review of Cuomo mere
months after Caetano, as well as Kolbe the following year,
signals that the federal appellate precedents governing
semi-automatic assault weapons and large-capacity

17
magazine bans — including Friedman and the present
case — comport with the protections of the Second
Amendment.
C.

Friedman Aligns With Ezell I.

Perhaps recognizing the futility in requesting
reconsideration of Friedman based upon this Court’s
decision in Heller I, Petitioners put forth an alternative
theory: that the Seventh Circuit improperly deviated from
the two-part Ezell test in deciding Friedman and the case
below. (Petition at 20-22.) This theory, however, also fails
to warrant review.
As the Seventh Circuit properly noted in Wilson, a
plain reading of Friedman reveals that it “fits comfortably
under the umbrella of Ezell [I].” (App. 16-17.) Ezell I,
which reviewed a City ordinance regulating firing ranges,
“followed closely on the heels of Heller and McDonald
at a time when ‘Second Amendment litigation [wa]s
new.’” Id. (quoting Ezell I, 651 F.3d at 700). Therefore,
when confronted with the challenge in Friedman four
years later, the Seventh Circuit informed its analysis by
reviewing Ezell I in conjunction with those precedents
specifically involving assault-weapons bans that had been
established in the interim. Id. In Heller II, for example,
the District of Columbia Circuit resolved the first
assault weapon and large-capacity magazine regulation
post-Heller I. 670 F.3d at 1261-62 (“Unlike the law held
unconstitutional in Heller, the laws at issue here do not
prohibit the possession of ‘the quintessential self-defense
weapon,’ to wit, the handgun.”) (quoting 554 U.S. at
629). In doing so, the court adopted a two-part approach
informed, in part, by Ezell I, id. at 1252 (collecting cases),
to ultimately uphold the prohibitions. Id. at 1260-1264.

18
In light of decisions such as Heller II, the Seventh
Circuit in Wilson refined its Ezell I inquiry — consistent
with analyses in other appellate circuits — for the limited
purposes of considering assault-weapons bans. (App. 1718) (discussing the parallels to be found in Friedman,
Heller II, Fyock, and Ezell I). In other words, Petitioners
fail to contradict the Seventh Circuit’s explanation, one
which this Court has already declined to review, that
its “decision in Friedman . . . did not ‘shun’ Ezell [I],
but merely represents the application and extension of
its principles to the specific context of a ban on assault
weapons and large-capacity magazines.” Id. at 18
(quotations in original).
Petitioners present nothing new for this Court to
consider, yet invite this Court to review regulations that
it has several times declined to inspect. This Court should
continue to decline Petitioners’ invitation and instead
affirm the lower court’s decision.
II. Petitioners Are Not Entitled To Additional
Discovery and the Discovery Rulings Below Do Not
Warrant Review From This Court.
In addition to Petitioners’ request to reconsider
Friedman, they argue that this Court must review
the lower court’s decision because it “wrongfully and
categorically banned a class of arms that are commonly
used by law-abiding persons for lawful persons.” (Petition
at 28-39.) In particular, Petitioners argue at length
that the district court denied them the opportunity to
demonstrate that the firearms prohibited by the Cook
County Ordinance are not “dangerous.” Id. at 32-35.
Indeed, Petitioners then proceed to suggest that the

19
assault weapons and large-capacity magazines at issue
“are not otherwise disproportionately dangerous.” Id. at
33. Not so.
Significant information exists of which this Court
may take judicial notice concerning the mass shooting
epidemic pervasive throughout our country. See Federal
Rule of Evidence 201(b)(2) (courts may judicial notice facts
not subject to reasonable dispute because they “can be
accurately and readily determined from sources whose
accuracy cannot reasonably be questioned.”). Indeed,
the Seventh Circuit already did so in considering the
materially identical Highland Park Ordinance.
In Friedman, the Seventh Circuit recognized that
“assault weapons with large-capacity magazines can fire
more shots, faster, and thus can be more dangerous in
aggregate”, which is why they constitute “the weapons
of choice in mass shootings.” 784 F.3d at 411; see also id.
(“That laws similar to Highland Park’s reduce the share
of gun crimes involving assault weapons is established
by data.”). Indeed, as the district court in Friedman
noted, “the [Highland Park] Ordinance was particularly
intended to address the potential threat of mass shootings
involving semi-automatic weapons like those in Aurora,
Colorado (12 killed, 58 injured); Newtown, Connecticut
(28 killed); Casas Adobes, Arizona (6 killed, 14 injured);
and Santa Monica College in Santa Monica, California (6
killed, 2 injured).” Friedman, 68 F. Supp. 3d at 898. And
in any event, the Seventh Circuit recognized that even
though mass shootings may be considered rare, they
remain “highly salient.” 784 F.3d at 412. As such, even if
the Highland Park ban “ha[d] no other effect,” the court
recognized that “[i]f a ban on semiautomatic guns and
large-capacity magazines reduces the perceived risk

20
from a mass shooting, and makes the public feel safer as
a result, that’s a substantial benefit.” Id.
Further, in the wake of Friedman, it is beyond
peradventure that mass shootings are no longer rare.
In the few short years since Friedman was resolved,
assault weapons and large-capacity magazines were used
in numerous additional grisly mass shootings in Orlando,
Florida; Las Vegas, Nevada; Sutherland Springs, Texas;
Parkland, Florida; and Pittsburgh, Pennsylvania. Another
such tragedy may, and will likely, occur before this matter
concludes.
The relevant legislative bodies to which Friedman
deferred have reviewed and considered these massacres
and the related public outcry. Responsive legislation has
been enacted. Friedman, 784 F.3d at 412; see also Ass’n of
N.J. Rifle & Pistol Clubs, 910 F.3d at 110; Kolbe, 849 F.3d at
120; Cuomo, 804 F.3d at 262. And contrary to Petitioners’
claim, Petition at 33, it is not “reversible error” to defer
to the legislature to weigh public interest in certain
measures, and determine the appropriate policies for the
constituents of their respective districts. Friedman, 784
F.3d at 410-11; Kimble v. Marvel Entertainment, LLC,
135 S. Ct. 2401, 2414 (2015) (“[Courts] promote the ruleof-law values to which courts must attend while leaving
matters of public policy to Congress.”). In declining to
review Friedman, this Court has already decided that
local governments are entitled to make such judgments
to protect the safety of its residents. 136 S. Ct. 447.
Here, Respondents request the same deference
this Court previously afforded to the City of Highland
Park. Petitioners fail to offer a single new issue or legal
argument to warrant review of the decision below.

21
CONCLUSION
The petition for writ of certiorari should be denied.
Respectfully submitted,
Cathy McNeil Stein
Assistant State’s Attorney
Chief, Civil Actions Bureau
Jessica M. Scheller
Paul A. Castiglione*
Assistant State’s Attorneys
paul.castiglione@cookcountyil.gov

Kimberly M. Foxx
Cook County State’s
Attorney
500 Richard J. Daley Center
Chicago, Illinois 60602
(312) 603-2350

Lauren E. Miller
Special Assistant
State’s Attorney
Of Counsel
*Counsel of Record
Counsel for Respondents

